IMPORTANT CREDIT CARD DISCLOSURES
The following disclosure represents important details concerning your credit card. The information about costs of the card is
accurate as of _01/01/2018_____. You can contact us toll free at the number or address on Page 1 to inquire if
any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
Platinum VISA
Annual Percentage Rate (APR)
for Purchases & Balance
Transfers

0.00%*

Introductory APR for one
year, based on your creditworthiness.
After that, your Standard APR
will be

10.24%, 11.24%, or
13.24% depending on your

credit history. This APR will vary with
the market based on the Prime Rate.

Classic VISA

16.24% or
18.24%

depending on your
credit history. This
APR will vary with the
market based on the
Prime Rate.

Secured VISA

14.24 °/o

This APR will vary
with the market based
on the Prime Rate.

APR for Cash Advances

19.99%

Penalty APR and When it
Applies

21.99%
This APR may be applied to your account if you make a payment that is late 60 days or
more.
How Long Will the Penalty APR Apply? If we increase your APRs due to a late
payment, we may keep them at this higher level on existing and new balances until you
make six consecutive on-time payments.

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge
you interest on purchases and balance transfers if you pay your entire new purchase
and balance transfer balance by the due date each month. We will begin charging
interest on cash advances on the date the cash advance is posted to your account.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES:
Fees to Open or Maintain your
Account
• Annual Fee:
Transaction Fees
• Balance Transfer:
• Cash Advance:
• Foreign Transaction:

Penalty Fees
• Late Payment:
• Returned Payment:

None
Either $10.00 or 3% of the amount of each transfer, whichever is greater.
Either $10.00 or 3% of the amount of each cash advance, whichever is greater.
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
0.8% of each transaction in U.S. dollars if the transaction does not involve a currency
conversion
Up to $10.00 if your payment is late 10 days or more
Up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Penalty APR disclosed above if you make a late
payment.
*Not Every Applicant Will Qualify for the Introductory APR: If an applicant does not qualify for the Introductory APR, the
Standard APR will apply.

